Memorandum from the Office of the Inspector General



July 17, 2006

Masoud Bajestani, NAB 1A-BFN

FINAL REPORT – INSPECTION 2006-514I – CRAFT LABOR TIME REPORTING
(BROWNS FERRY NUCLEAR PLANT UNIT 1 RESTART)



Attached is the subject final report for your review. As discussed with you on July 13, 2006,
this inspection is being issued for informational purposes only; therefore, no response is
necessary.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact E. Ashley Haga, Auditor, at (423) 751-3124 or
Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 751-7821. We
appreciate the courtesy and cooperation received from your staff during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GCJ:EAH:BKA
Attachment
cc (Attachment):
     Peyton T. Hairston, Jr., WT 7C-K
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Karl W. Singer, LP 6A-C
     OIG File No. 2006-514I
    Craft Labor Time Reporting
(Browns Ferry Nuclear Plant Unit 1 Restart)

             2006-514I
            July 17, 2006
Agenda

     Background
     Objective, Scope, and Methodology
     Observations




                                          2
Background

     The Office of the Inspector General was requested by the former Vice
      President, Browns Ferry Nuclear Plant (BFN) Unit 1 Restart, to review Stone
      and Webster Engineering Corporations’ (SWEC) craft labor time reporting
      associated with the October 2005 Unit 1 Restart craft labor switch to five
      eight-hour straight-time work schedules.
     In 2005, Tennessee Valley Authority (TVA) and the Tennessee Valley
      Trades and Labor Council modified their Memorandum of Understanding
      (LRS-54). Included in this modification was Attachment A, Mandatory –
      Eight/Ten Straight-Time Attendance Agreement.
       –   The work schedule change was to increase productivity, e.g., to curtail
           absenteeism and tardiness.
       –   In October 2005, SWEC switched to five eight-hour day straight-time work
           schedules to comply with this modification.
     Prior to October 2005, SWEC operated under four ten-hour day straight-time
      work schedules and did not track absenteeism.
     According to SWEC, for the period October 2005 to February 2006, SWEC
      employed an average of more than 1,400 craft employees at BFN Unit 1, at a
      cost to TVA of $83.8 million.




                                                                                      3
Background (cont’d)

   SWEC developed the following key control activities to ensure compliance with
   LRS-54.
       The AnalyzeTime application evaluates payroll data to identify inconsistencies and potential
        errors in time calculations.
          –   It recalculates and compares data extracted from the Payroll and Human Resources databases
              based on LRS-54 guidelines.
       Timesheets, which support payroll payments, are prepared and signed by a foreman* and
        then approved by an applicable supervisor.
       Gate-log reports are available to identify time reporting variances for employees working
        inside the secured area.


   *Includes temporary foreman, general foreman, and lead foreman.




                                                                                                           4
Objective, Scope, and Methodology

    Objective:
       To assess the processes and key control activities pertaining to time reporting
        associated with the October 2005 Unit 1 Restart craft labor switch to five eight-hour day
        straight-time work schedules.
    Scope:
       The scope of our review included the processes and key controls pertaining to craft time
        reporting for the period of October 3, 2005, through February 28, 2006.




                                                                                                    5
Objective, Scope, and Methodology
(cont’d)
    Methodology:
       To achieve our objective, we:
          –    Interviewed SWEC personnel and reviewed selected documentation including timesheets,
               AnalyzeTime reports,* and absence forms to identify the time reporting process and key control
               activities.
          –    Randomly selected one day per month from October 2005 to February 2006 to verify the
               presence of the foreman’s and supervisor’s required signatures on all timesheets, for a total of
               1,481 timesheets.
          –    Randomly selected ten employees from the five sample days chosen above and reviewed the
               related week’s timesheets to ensure accurate processing. Specifically, we:
                     Compared timesheets to the hours paid.
                     Reviewed gate-log reports highlighting variances in time paid and time reported.


        *While we found the AnalyzeTime application provides key control information and were told that the AnalyzeTime
         application is password protected, we performed no testing on access control.




                                                                                                                          6
Objective, Scope, and Methodology
(cont’d)
      To achieve our objective, we:
         –   Assessed absenteeism monitoring by reviewing:
                  Selected reports showing employees who had unexcused absences exceeding earned amounts
                   and corresponding SWEC actions.
                  Reports showing employees who had ten or more excused absences during the period of
                   October 2005 to February 2006 to assess whether a process to identify potential abuse is
                   warranted.


   This inspection was conducted in accordance with the “Quality Standards for Inspections.”




                                                                                                              7
Summary of Observations

   Our assessment of the key control activities found:
      The AnalyzeTime application is working as intended.
      Over 99 percent of timesheets reviewed contained all required signatures.
      Gate-log reviews are being conducted; however, these reviews provide only limited
       information for monitoring.


   Additionally, we noted:
      Absences are not tracked when an employee is temporarily assigned to another unit.
      No process exists to ensure that excused absences are monitored to identify potential
       abuse.




                                                                                               8
Observation 1 – Time Reporting Control
Activities
       Our review of the AnalyzeTime application found AnalyzeTime effectively
        identified payroll discrepancies. Specifically, the AnalyzeTime application:
         Identified active employees who have no time entered in the payroll file for any
             particular day.
         Recalculated the straight-time, time-and-a-half, and double-time pay categories and
             compared the results to the keyed payroll entries.
         Identified potential errors in time calculations.
             Our review of time calculations for 50 employees found only one instance where time was
               calculated incorrectly. Further review found the time was summarized incorrectly on the
               timesheet by the foreman.
       We found SWEC timesheets basically contained all required signatures.
          Over 99 percent of the 1,481 timesheets* reviewed had the required signatures. We
           only identified six instances where either the foreman’s or supervisor’s required
           signature was not present. In all six instances at least one signature was present.

        *Timesheets contain more than one employee per sheet.




                                                                                                         9
Observation 1 – Time Reporting Control
Activities (cont’d)
      We found that gate-log reports provide limited information (e.g., tardiness,
       early quits, etc.) and not complete assurance that employees worked the
       time reported.
         –    Gate-log reports do not exist for employees who may be assigned to a work
              location outside the secured area.
         –    Gate-log reports do not verify an employee’s presence. We attempted to review
              the gate-logs for the 50 employees in our sample.* We found:
                   A gate-log report was not available for December 2005, thus we could not perform an
                    assessment for ten SWEC employees.
                   Twenty out of the forty remaining employees from the sample had a greater than two-hour
                    variance between hours paid and hours inside the secured area.
                        –   Nine employees were inside the secured area for more hours than they were paid—a total
                            difference of 31 hours.
                        –   Eleven employees were inside the secured area for less hours than they were paid—a total
                            difference of 210 hours.
                   Two employees did not appear on the gate-log.
                   One employee’s date of excused absence and timesheet did not coincide with the gate-log
                    report.

       *Ten employees for each month from October 2005 to February 2006.




                                                                                                                       10
Observation 2 – Unexcused Absence
Tracking Control Activities
    According to LRS-54, an employee earns one unexcused absence for his/her first
    six weeks of employment and a second unexcused absence for the next six
    weeks.* An additional unexcused absence will be earned for every second
    consecutive month of employment thereafter.
         We found that SWEC monitors absences in the following ways:
           –    The AnalyzeTime application identifies and tracks unexcused absences that exceed accrued
                amounts.
           –    Absences are not considered excused unless written authorization is given by the contractor’s
                designated representative.
           –    An employee who exceeds the allowable unexcused absences earned is subject to termination.
                      In reviewing SWEC documentation, instances were noted where SWEC employees were terminated
                       for excessive unexcused absences.
                      We found three instances where active employees had unexcused absences exceeding the
                       allowable amount. According to SWEC appropriate actions are being taken, but documentation
                       must be received before actions can be completed.
         Additionally, absences taken while an employee is temporarily assigned to another unit
          are not being tracked.

    *SWEC is providing two unexcused absences upon employment and not one each 6 weeks for the first 12 weeks of employment.




                                                                                                                          11
Observation 3  Excused Absenteeism

     No process exists to ensure that excused absences are monitored to identify
      potential abuse. Additionally, excessive personal excused absences are not
      defined.
       –   The LRS-54 guidelines for what should be deemed an excused absence are very
           discretionary.
       –   Excessive personal excused absences could lead to overpayment of overtime and loss
           of productivity.
     We reviewed reports showing employees who had ten or more excused
      absences of five hours or more during the period of October 2005 to February
      2006. We limited this report to those absences classified as personal.
       –   We found 63 employees with 10 or more excused personal absences. Combined,
           these 63 employees had 788 days of excused personal absences.




                                                                                          12
